Case: 19-3740

Document: 18-1

Page: 1

Date Filed: 06/09/2020

ALD-169
April 23, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3740
PERRY BURRIS, Appellant
VS.
SUPERINTENDENT MAHANOY SCI, ET AL.
(E.D. Pa. Civ. No. 2-17-cv-02161)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted is Appellant’s application for a certificate of appealability
under 28 U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,

Clerk
________________________________ ORDER_________________________________
To the extent that Appellant’s notice of appeal purports to seek appellate review
concerning the District Court’s October 2018 habeas judgment, we lack appellate
jurisdiction here, see Fed. R. App. P. 4(a)(1)(A) (setting a 30-day notice of appeal
deadline); Bowles v. Russell. 551 U.S. 205, 209-10 (2007) (holding that a timely notice
of appeal is a jurisdictional requirement). Furthermore, we previously considered and
denied Appellant’s request for a certificate of appealability related to the October 2018
judgment in C.A. No. 18-3422. Regarding the District Court’s denial of Appellant’s
motion under Federal Rule of Civil Procedure 60(b), Appellant’s request for a certificate
of appealability is denied. Jurists of reason would not debate the District Court’s
conclusion that Rule 60(b) relief was unwarranted. See 28 U.S.C. § 2253(c); Slack v.
McDaniel. 529 U.S. 473, 484 (2000); Morris v. Horn, 187 F.3d 333, 340-41 (3d Cir.
1999). Appellant’s motion challenged the District Court’s prior merits detennination of
his ineffective assistance of counsel claim concerning his consent defense. The District
Court lacked jurisdiction to consider the motion, which was in the nature of an
unauthorized second or successive habeas petition. See Gonzalez v. Crosby. 545 U.S.

Case: 19 -3740

Document: 18-1

Page: 2

Date Filed: 06/09/2020

524. 530-32 (2005). To bring a second or successive habeas petition, a petitioner first
must obtain permission from this Court. See 28 U.S.C. § 2244(b)(3)(A).
By the Court,

s/Patty Shwartz
Circuit Judge
Dated: June 9, 2020
kr/cm Perry Burris
Max C. Kaufman, Esq.
Ronald Eisenberg, Esq.

A True Copyf0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

y-

w

/

\

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3740

PERRY BURRIS,
Appellant
v.
SUPERINTENDENT MAHANOY SCI; THE DISTRICT ATTORNEY
OF THE COUNTY OF PHILADELPHIA; THE ATTORNEY GENERAL
OF THE STATE OFPENNSYLVANIA

(E.D. Pa. No. 2-17-CV-02161)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
i :'i

other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
Ki

BY THE COURT,

;

i

s/Patty Shwartz
Circuit Judge
Date:
SLC/cc:

September 14, 2020
Perry Burris
Max C. Kaufman, Esq.

:

%
?

A

7
i

i

;

■5

IN THE COURT OF COMMON PLEAS OF PHILADELPHIA
CRIMINAL TRIAL DIVISION

L

CP-51-CR-0000712-2008

COMMONWEALTH OF PENNSYLVANIA

V.
PERRY BURRIS
OPINION

!*

nit
ofPA

By: The Honorable Harold M. Kane

PROCEDURAL HISTORY
On September 17, 2008, the defendant, Perry Burris, was tried by the undersigned sitting,
without a jury on charges of mge, involuntary deviate sexual intercourse, sexual assault, .simple
assault, robbery and burglary. The court found defendant guilty of all charges. Burris was sentenced
on November 13, 2008 to an aggregate term of thirty (30) to sixty (60) years of imprisonment.
Post-sentence motions were dismissed on March 25,2009. A Notice of Appeal was filed on
April 1, 2009. On April 8, 2009, the court ordered defendant to tile a Statement of Matteis
Complained of on Appeal pursuant to Pa.R.A.P. 1925(b). The court subsequently granted counsel
an extension of time, and a 1925(b) statement was filed on June 19, 2009.
FACTUAL HISTORY
The victim in this case, Denise Herbert, was home alone in her residence in the early morning
hours of September 24,2007 when she was awakened by the doorbell. Ms. Herbert opened the door,
believing it to be her sister, but saw no one at the door. The defendant then came around from behind
1

•A

MCsif-'a.’..'!.-: .

\
■

■'■'\yeudCy

r.

,-asjW'”^
J

■:

i i

'

-:>

^

'4

y

/

/

■ t

•.?
f

the door and made Ms. Herbert goinsidetothe liyingrocmf where he punchgdherm the face anck f
heacLwarned her not to scream , and ordered her to take her clothes off. The defendant put his mouth
on the victim’s vagina and then put his penis inside her anus, causing her to defecate on herself.
Defendant then grabbed the victim by the neck and took her to the shower where he put her under
hot water.

He later took the victim into her bedroom where he inserted his penis into her vagina.

Defendant repeatedly told Ms. Herbert that he would have to kill her so she could not report him to
police. N.T. 9-17-08, pp. 7-23.
As the incident was occurring, Danny, a friend of the victim who stored some his belongings
there, came
on

to the door and rang the bell. The victim convinced defendant to let her open the door

the pretense of getting rid of her friend. Ms. Herbert grabbed a shirt and ran out the door, telling

her friend she had just been raped. The victim’s friend called police while Ms. Herbert hid down the
street. From her hiding place, Ms. Herbert saw the defendant leave her residence, walk up the street
and turn the corner. When police arrived seconds later, the victim, shaking, crying and wearing
nothing but a little top with a blanket wrapped around her, ran up to the police vehicle and reported
the rape. A rape kit confirmed the presence of defendant s sperm in the victim’s body. The rent
money Ms. Herbert kept on the top of her television was missing after the incident.
DISCUSSION
In the 1925(b) statement, counsel states that she intends to file an Anders brief in this case.
The

defendant, however, contends that the court failed to consider his individualized needs m

sentencing him to the statutory maximum for each crime, and erred by focusing solely on the
seriousness of the offense. These claims are without
Imposition of sentence is vested in the sound discretion of the sentencing court and will n|

2

/<
'

I

•

'

' 1

be disturbed absent an abuse of discretion. Commonwealth v. Smith, 543 Pa.. 566,- 673 A.2d 89j, 895
■i

(1996). A trial court is afforded broad,discretion in sentencing criminal defendants because of the
•

s

perception that the trial court is in the best position to determine the proper penalty for a particular
v.
offense based upon an evaluation of the individual circumstances before it.” Commonwealth
Mouzon, 571 Pa. 419, 812 A.2d 617, 620 (2002).
Here, the court sentenced Burris to 10 to 20 years for rape, robbery and burglary, and ordered
these sentences to run consecutively for an aggregate sentence of 30 to 60 years. Although the
sentences imposed were the statutory maximum for each crime, they were also within the standard
range of the guidelines due to defendant's prior record score ol REVOC.

i

The court saw no reason

to sentence below the standard range in view of the brutal nature of the crime and defendant’s long
S'criminal history which includedfourteen prior convictionsjndjuyen^

Indeed,

J?cr defendant had been arrested twenty times since age thirteen, and had been out of prison a mere
^ thirteen months before committing this offense. Clearly, prior attempts to rehabilitate defendant had
Af! ^ failed miserably, and defendant showed himself in this case to pose a grave danger to the community.
M ^Accordingly, in addition to the seriousness of the offense, the court also considered the defendant's
character and the danger he posed to society in sentencing him.

£

\

For all of the foregoing reasons, it is the opinion of this court that defendant's judgment of
sentence should be affirmed.

BY THE COURT:
'It should be noted that the court did not impose sentences for the crimes of inyoluntaiy
deviate sexual intercourse and simple assault despite having found defendant guilty of those
offenses.

- -4

i*S ■

*

’

V

•

t7 /
;

V
*

i

i

T&s-

■■■■’■}

-i
.>•

..J

7
i* ¥t ch^NORXBLE HAROLD M. KANE
.

y'

/

DATE:

4

X -

--

- :*
~ 7/

■ 4

■

:' 'S'

I '■’

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

:

No. 179 EM 2016

Respondent

v.

PERRY BURRIS,
Petitioner

ORDER

PER CURIAM
AND NOW, this 16th day of December, 2016, the Petition for Leave to File
Petition for Allowance of Appeal Nunc Pro Tunc is DENIED.

A True Copy
As Of 12/16/2016
.. i>

Attest:
John W.42arson Jr., tsquira/
Deputy Prothonotary
Supreme Court of Pennsylvania

!

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
,

PERRY BURRIS

CIVIL ACTION
v.

NO. 17-2161

OCT 1 8 2019

TERESA DALBALSO, et al
ORDER

KATE BARKMAN, Clerk
!.
____ Oep. Clerk

AND NOW, this 18th day of October 2019, upon considering the Petitioner’s Motion for
relief (ECF Doc. No. 32) under Fed. R. Civ. P. 60(b) from our October 9, 2018 Memorandum
and Order (ECF Doc. Nos. 25, 26) denying his habeas relief for several grounds including lack
of merit and procedural defaults including on his defense of victim consent, the United States
Court of Appeals’ March 28, 2019 Order denying Petitioner’s application for a certificate of
appealability (ECF Doc. No. 29), Petitioner now rearguing the previously decided federal
grounds for relief concerning lack of consent but now specifically citing medical records not.
mentioned in the habeas Petition nor raised in his Objections (ECF Doc. No. 24) to the
exhaustive Report and Recommendation (ECF Doc. No. 21), but also procedurally defaulted and
lacking merit as he further fails to show exceptional or extraordinary circumstances warranting
relief under Rule 60(b)(6) under Reeves v. Fayette SCI,1 it is ORDERED Petitioner’s Motion for

i

897 F.3d 154 (3rd Cir. 2018). In Reeves, Mr. Reeves, a state prisoner, asserted ineffective
assistance of counsel, alleging counsel “fail[ed] to discover or present to the fact-finder the very
exculpatory evidence that demonstrate[d] his actual innocence, [and] such evidence constitute^]
new evidence ... for purposes of the actual innocence [miscarriage of justice] gateway” to
excusing procedural default of a state prisoner’s habeas claim. 897 F.3d 154, 164-65 (3d Cir.
2018). Under Schlup v. Delo, the Supreme Court held “to qualify for this exception, the
petitioner must present new, reliable evidence showing it is more likely than not that no
reasonable juror would have voted to convict him.” Reeves, 897 F.3d at 157 (citing Schlup v.
Delo, 513 U.S. 298, 324 (1995)). Mr. Burris does not argue in his Rule 60(b) motion the victim’s
medical records are demonstrative of his actual innocence, nor how this evidence would make it
more likely than not no reasonable juror would have voted to convict him. He does argue how

Rule 60(b) relief (ECF Doc. No. 32) is DENIED as Petitioner waived our de novo review of this
claim by failing to raise this fact issue in this habeas petition or in his Objections2 and there is no
ability to find this medical records evidence claim is not procedurally defaulted or demonstrates
actual innocence based on the overwhelming evidence.
KEA]

this evidence would have changed the outcome, but under the Schlup standard, his argument
does not reach the heightened requirement this exception requires.
v.
2 Eisen v. Horn, No. 99-1624, 2009 WL 3045596 (W.D.Pa. Sept. 22, 2009). “[W]ith limited (if
any) exception, parties objecting to a Magistrate Judge’s report or order are required to adhere to
the arguments, evidence, and issues they presented first to the Magistrate Judge.” Masimo
Corporation v. Philips Electronic North America Corporation, 62 F. Supp. 3d 368-77 (D. Del.
2014). Mr. Burris presented the issue of his counsel failing to investigate and present the victim’s
medical records to the trial court in his initial brief to Judge Heffley. Although Judge Heffley did
not consider the medical records in her report and recommendation, likely because Mr. Reeves
only included the issue in his brief, rather than in his habeas corpus petition itself, see Dedmon v.
Warden, No. 16-1776, 2016 WL 5912869, at *1 n.l (E.D. Pa. Oct. 11, 2016) (“Magistrate Judge
Caracappa did not address any claim of actual innocence in the analysis of whether any
exceptions to the time bar applied. The petitioner has not objected to Judge Caracappa declining
to address such a claim. Presumably, Judge Caracappa did not address it because the petition did
not properly raise it. The court agrees that it does not appear that the petitioner has asserted such
a claim here.”), Mr. Reeves retained the opportunity to include this issue in his objection to the
report and recommendation and such an opportunity is not waived. But he did not raise this
concern in his Objections.

2

f

1.

7

•*>
/

0.A

!
\

Superior Court of |3emt$plbama
/

Joseph D. Seletyn, Esq.
Prothonotary
Charles E. O'Connor, Jr., Esq.
Deputy Prothonotary

Eastern District

June 22, 2015

530 Walnut Street
Suite 315.
Philadelphia, PA 19106
(21,5) 560-5800
www.pacourts.us/courts/superior-court

Perry Burris
SCI @ Rockview, # HU-9132
Box A
Bellefonte, PA 16823
RE:

’

V
!-'■

Com. v. Burris, P..
No. 3259 EDA 2014
Trial Court Docket No: CP-51-CR-0000712-2008

■

*

Dear Perry Burris:
Enclosed please find a copy of an order dated June 22, 2015 entered in the above-captioned t
matter.

truly yours,

Joseph D. Seletyn, Esq.
Prothonotary
/fhi
Enclosure
cc: Hugh J. Burns Jr., Esq.
The Honorable Denis P. Cohen, Judge

m
Filed 06/22/2015

' COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.
PERRY BURRIS,
Appellant

No. 3259 EDA 2014
(C.P. Philadelphia County
No. 5l-CR-0000712-2008)
ORDER

Upon consideration of Appellant's pro se "Application For Relief," the
Court of Common Pleas of Philadelphia County docket indicating Appellant filed
a pro se "Statement of Matters Complained on Appeal" on March 2, 2015, and
the Court of Common Pleas of Philadelphia County docket indicating "Grazier
Hearing Held - Defendant Permitted to Proceed Pro Se" on May 29, 2015,
Appellant's pro se "Application For Relief" is DENIED, without prejudice to
Appellant's right to apply to the PCRA court for the requested relief.
PER CURIAM

Cl

\. M
IN THE COURT OF COMMON PLEAS
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CRIMINAL TRIAL DIVISION

CP-5 l-CR-0000712-2008

COMMONWEALTH OF
PENNSYLVANIA,
APPELLEE

JUN 3 0 2015
V.

Criminal Appeals Unit
First Judicial District of PA

PERRY BURRIS,
SUPERIOR COURT NO. 3259 EDA 2014
APPELLANT
OPINION
A. PROCEDURAL HISTORY
On September 17, 2008, in a waiver trial1 before the Honorable Harold Kane of
the Court of Common Pleas, the defendant was found guilty of Rape - Forcible
Compulsion7, IDSI - Forcible Compulsion3, Sexual Assault4, Simple Assault5, Robbery Inflict Serious Bodily Injury6, and Burglary7. On November 13,2008, Judge Kane
sentenced the defendant to ten (10) to twenty (20) years of incarceration for Rape Forcible Compulsion, ten (10) to twenty (20) years of incarceration for Robbery - Inflict
Serious Bodily Injury, and ten (10) to twenty (20) years of incarceration for Burglary,

1 Douglas Earl, Esq., represented the defendant at the waiver trial.
2 18 PA.C.S. § 3121(a)(1) (a felony of the first degree)
3 18 PA.C.S. § 3123(a)( 1) (a felony of the first degree)
4 18 PA.C.S. § 3124.1 (a felony of the second degree)
5 18 PA.C.S. § 2701(a)(1) (a misdemeanor of the second degree)
6 18 PA.C.S. § 3701(a)(l)(i) (a felony of the first degree)
7 18 PA.C.S. § 3502 (a felony of the first degree)

Vi

u
i

with all sentences running consecutively for a total sentence of thirty (30) to sixty (60)
years of incarceration.8 Also on November 13, 2008, Barbara McDermott, Esq., now the
Honorable Barbara McDermott, Judge of the Court of Common Pleas, was appointed as
counsel for the defendant for any post-trial motions and appeals.
On November 24,2008, a Post-Sentence Motion was filed and subsequently
denied by operation of law on March 25, 2009. On December 8,2009, Ms. McDermott
filed an Anders brief along with an application to withdraw as counsel, stating there were
no meritorious issues to be raised on appeal. On June 8, 2010, the Superior Court
affirmed the judgement of sentence and permitted Ms. McDermott to withdraw as
counsel. On July 23, 2010, the defendant filed a Post-Conviction Relief Act (PCRA)
petition. On March 30, 2011, Raymond Bily, Esq. was appointed to handle the
defendant’s PCRA case. On December 10, 2012, Mr. Bily filed an amended PCRA
petition on behalf of the defendant. On October 31, 2014, this Court formally dismissed
the defendant’s PCRA petition.
On November 19, 2014, Mr. Bily filed a Notice of Appeal. On December 16,
2014, this Court issued a 1925(b) order. On December 31, 2014, Mr. Bily filed a
Statement of Matters. On February 20, 2015, Mr. Bily filed an application to withdraw
as counsel. On March 2, 2015, the defendant filed a pro se Statement of Matters. On
May 29,2015, this Court held a Grazier hearing and permitted the defendant to proceed
pro se. This Court now files a 1925(b) opinion, relying on the defendant’s Statement of
Matters from March 2, 2015, in which the defendant raises the following issues:
1. Trial counsel was ineffective for stipulating to exculpatory DNA evidence
crucial to defendant’s defense of consent by the alleged victim. Pa.
Constitution Article 1 § 9.
Judge Kane issued no further penalty on the remaining charges.

2

•.

u

2. Trial counsel was ineffective for providing incorrect legal advice as to Pa
Rules of Evidence and statutory effect on defendant’s right to testify on his
behalf. 42 Pa.C.S. § 5918.
3. Direct appeal counsel was ineffective for failing to investigate defendant’s
claims and abandoning appellant through an Anders brief.
4. Collateral appeal counsel was ineffective for failing to motion the court for
performance of DNA testing that is related to the investigation and
prosecution that resulted the judgement of conviction in accordance with 42
Pa.C.S. § 9543.1 Post-Conviction DNA testing.
5. The prosecutor committed gross misconduct by initiating an agreement
between himself and trial counsel to stipulate to exculpatory DNA evidence.
See. Model Rules of Professional Conduct 3.8 Special Responsibilities of a
prosecutor and 8.4 Misconduct.
B. FACTS
In the early morning hours of September 24, 2007, the defendant, who was
intoxicated at the time, rang the doorbell of the victim, whom he had previously
unsuccessfully approached for a date. (N.T. 9/17/2008 at 15-19, 24). When the victim
answered the door, the defendant forced the victim back into her home, punched her
repeatedly in the face, and forced her to take off her clothes. (Id. at 20-22). The
defendant proceeded to perform oral sex on the victim and then anally raped her, which
caused the victim to defecate on herself. (Id at 21-23). The defendant then forced the
victim to shower, after which he vaginally raped her. (Id. at 23). During all of these
heinous and terrifying acts, the defendant repeatedly told the victim that he would kill her
once he was finished with her. (Id at 23-24). The defendant also stole rent money from
the victim’s home. (Id. at 31-32). Eventually the victim was able to escape when a
friend came to her front door and she ran out of her home and found police. (Id. at 2730).

3

■.

Li

V

C. DISCUSSION

In review of ineffective assistance claims, it is well settled that counsel is
presumed effective, and that the defendant bears the burden of proving ineffectiveness.
Commonwealth v. Cooper, 941 A.2d 655, 664 (Pa. 2007). Thus, to prevail on an
ineffective assistance of counsel claim a PCRA petitioner must demonstrate that:
(1) the underlying issue has arguable merit; (2) the course
of conduct pursued by counsel did not have some
reasonable basis designed to effectuate the petitioner's
interests; and (3) the petitioner suffered actual prejudice as
a result of counsel's deficient performance. Prejudice is
shown when "there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding
would have been different." Failure to satisfy any prong of
this test necessitates rejection of the petitioner's claim.
Commonwealth v. Williams, 9 A.3d 613 (Pa. 2010) (internal citations omitted). In the
instant case, all of the defendant’s claims are either waived and/or devoid of merit.

Stipulation of DNA evidence

The defendant’s claim that trial counsel was ineffective for stipulating to DNA
evidence is both waived and meritless. During trial, there was a stipulation between
counsel that sperm found inside the victim, had it been tested by a DNA lab, would have
been identified as the defendant’s sperm. (N.T. 9/17/2008 at 55). As an initial matter,
the defendant raises this issue for the first time in his Statement of Matters. As this issue
was never raised or argued during any of the PCRA proceedings before this Court, it is

4

waived. See Pa.R.A.P. 302(a).9 Even if this issue is not waived, it is unclear how the
defendant suffered any prejudice, let alone actual prejudice, from the stipulation. The
defendant argues that the DNA evidence was crucial to his defense that the sex was
consensual, yet had the sex been consensual, the defendant's sperm would still have been
inside the victim. As such, the stipulation resulted in no prejudice whatsoever to the
defendant. As the defendant has not proven that he suffered actual prejudice from this
stipulation, his claim is without merit. See Commonwealth v. Spotz, 84 A.3d 294, 321
(Pa. 2014).

Defendant's right to testify

The defendant’s vague claim that trial counsel provided incorrect legal
advice as to his right to testify is meritless.10 At trial, Mr. Earl informed Judge Kane that,
“.. .1 just want to place this on the record. I have discussed before today and I have
discussed today about [the defendant’s] right to testify, and [the defendant] has stated he
does not wish to testify.” (N.T. 9/17/08 at 67-68). The defendant has not provided any
evidence that Mr. Earl did not advise him or incorrectly advised him about his right to
testify. As the defendant fails to prove by a preponderance of the evidence that trial

9 “Issues not raised in the lower court are waived and cannot be raised for the first time on appeal.”
10 The defendant refers to 42 Pa.C.S. § 5918 in his allegation of error, however that statute refers to
protections afforded to a defendant against offenses other than those charged. The defendant fails to
explain the relevance of this statute as it relates to the offenses he was actually charged with in this case.
Additionally, although he refers to the Rules of Evidence, the defendant fails to identify any Rule that
might apply to his case.

5

u

counsel was ineffective, his claim must fail. See 42 Pa.C.S. § 9543(a)11; see also
Commonwealth v. D’Amato, 856 A.2d 806, 811 (Pa. 2004).

Appellate counsel ineffectiveness

The defendant’s claim that his direct appeal counsel was ineffective for failing to
investigate the defendant’s claims and for filing an Anders brief is both waived and
without merit. As an initial matter, the issue of Ms. McDermott’s alleged ineffectiveness
was never raised or argued before this Court, therefore it cannot be raised for the first
time on appeal and is waived. See Pa.R.A.P. 302(a). Even if the issue is not waived, the
defendant has provided no evidence or explanation as to how Ms. McDermott abandoned
him. In its opinion affirming the defendant’s judgement of sentence, the Superior Court
reviewed Ms. McDermott’s Anders brief and found that she had complied with Anders
procedure. See Commonwealth v. Perry Burris, J. S31006/10, 976 Eastern District
Appeal 2009 at 5 (Unpublished). Additionally, the Superior Court stated, “We find that
counsel’s analysis was accurate; the issues are wholly without merit and frivolous.
Furthermore, we have reviewed appellant’s record as a whole and we conclude that there
are no other issues of merit for appellate review.” Id. at 8. Accordingly, the defendant’s
claim is meritless.

n “ (a)

General rule.—To be eligible for relief under this subchapter, the petitioner must plead and prove by
a preponderance of the evidence all of the following...”

6

PCRA counsel ineffectiveness

The defendant’s claim that PCRA counsel was ineffective for failing to submit a
motion for postconviction DNA testing pursuant to 42 Pa.C.S. 9543.1 is waived, as
claims of PCRA counsel’s ineffectiveness cannot be raised for the first time on appeal.
Commonwealth v. Henkel, 90 A.3d 16, 30 (Pa. Super. 2014). Additionally, the defendant
fails to establish actual prejudice, thus is claim is devoid of merit. See Spotz, 84 A.3d at
321.

Prosecutorial Misconduct

The defendant’s claim of prosecutorial misconduct is waived. The
defendant argues that the Commonwealth committed “gross misconduct” when the
prosecutor entered into a stipulation with defense counsel as to the admittance of DNA
evidence. As the defendant’s claim of prosecutorial misconduct could have been raised
earlier on direct appeal and is not cognizable under the PCRA, it is waived. See 42
Pa.C.S. § 9544(b)12; Commonwealth v. Ford, 809 A.2d 325, 329 (Pa. 2002) (Claims of
prosecutorial misconduct that could have been raised on direct appeal but instead were
raised for the first time in a PCRA petition were waived).
Even if this claim is not waived, it is devoid of merit. In Commonwealth v.
Brown, the Superior Court stated that, “...comments by the district attorney do not

12 “(b) Issues waived.--For purposes of this subchapter, an issue is waived if the petitioner could have
raised it but failed to do so before trial, at trial, during unitary review, on appeal or in a prior state
postconviction proceeding.”

7

constitute reversible error unless the unavoidable affect of such comments would be to
prejudice the jury, forming in their minds fixed bias and hostility towards the defendant
so that they could not weigh the evidence objectively and render a true verdict.” 480
A.2d 1171, 1176 (Pa. Super. 1984). Moreover, remarks that are unwise or irrelevant are
prejudicial only when such remarks deprive the defendant of a fair and impartial trial.
See Commonwealth v. Middleton, 409 A.2d 41, 44 (Pa. Super. 1979). Finally, a
stipulation between counsel which is properly stated by the Commonwealth during trial
does not constitute prosecutorial misconduct. See Commonwealth v. Hanible, 30 A.3d
426, 466-67 (Pa. 2011).
In the instant case, the Commonwealth announced the stipulation as follows:
“There’s a stipulation also between counsel that that sperm, if tested by the DNA lab,
would come back to the defendant. Obviously, the issue in the case is consent, it’s not
who did it.” (N.T. 9/17/2008 at 55). This Court cannot see any possible way in which
the Commonwealth misstated the stipulation between counsel, or how the comments by .
the prosecutor deprived the defendant of a fair and impartial trial. Additionally, the
defendant does not argue that the Commonwealth misstated the stipulation to the DNA
evidence, but instead appears to argue that the fact the Commonwealth “initiated” the
agreement with trial counsel constitutes misconduct. This Court cannot find any case law
to support a claim that a prosecutor commits misconduct simply by entering into a
stipulation. As such, the defendant’s claim is meritless.

C. CONCLUSION
For the foregoing reasons, the decision of this Court should be affirmed.

8

y

V

p

:. •
t/

BY THE COURT:

DENIS P. COHEN, J.
Dated: June 23, 2015

9

>1*

Commonwealth of Pennsylvania

CP-5 l-CR-0000712-2008

v.
Perry Burris

PROOF OF SERVICE
I hereby certify that I am this day serving the foregoing Opinion upon the persons, and in the
manner indicated below, which service satisfied the requirements of Pa.R.Crim.P. 114:
Type of Service:

First Class Mail

Petitioner:

Perry Burris, HU 9132
SCI Rockview
Box A
Bellefonte, PA 16823

District Attorney:

Appeals Unit
Office of the District Attorney
Appeals Unit
Three South Penn Square
Philadelphia, PA 19107

Dated: June 30, 2015

/)

r.
DENIS P. COHEN, J.

rl

j

!■

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PERRY BURRIS

CIVIL ACTION
V.

(3

NO. 17-2161
%

TERESA DALBALSO, et al.

MEMORANDUM
KEARNEY, J.

October 9, 2018

Perry Burris objects to United States Magistrate Judge Heffley’s Report &
Recommendation to deny Mr. Burris’s pro je-petition for a writ of habeas corpus under 28
U.S.C. § 2254 based on ineffective assistance of trial counsel, After conducting a de novo
review of the record and Mr. Burris’s objections, we overrule Mr. Burris’s objections, adopt
Judge Heffley’s Report & Recommendation, and dismiss Mr. Burris’s petition for habeas relief.
I. Background
On September 17, 2008, the Honorable M. Harold Kane of the Philadelphia County Court
of Common Pleas found Perry Burris guilty of rape, assault, robbery, and burglary after a bench
trial.1
On November 13, 2008, Judge Kane sentenced Mr. Burris to three ten-to-twenty-year
sentences of incarceration running consecutively, and appointed Mr. Burris counsel for post-trial
motions and appeals.2 On December 8, 2009, appointed defense counsel filed a brief under
Anders v. California, seeking to withdraw because Mr. Burris had no meritorious issues for
appeal.4 On June 8, 2010, the Pennsylvania Superior Court affirmed Mr. Burris’s conviction and
granted counsel’s request to withdraw.5

W'D OCT 0 8 2018
&

v'<?

- \)

On July 23, 2010, Mr. Burris filed a Post-Conviction Relief Act (PCRA) petition.6 On
March 30, 2011, the court appointed Mr. Burris counsel.7 On December 10, 2012, Mr. Burris
filed an amended PCRA petition.8 On October 31, 2014, the PCRA court denied Mr. Burris’s
petition.9 Mr. Burris’s counsel submitted a Notice of Appeal, then moved to withdraw from the
case.10 On March 2, 2015, Mr. Burris submitted a pro se Statement of Matters complained of on
appeal.

On June 23, 2015, the Court of Common Pleas of Philadelphia County issued a Rule

1925(a) Opinion12 explaining its denial of Mr. Burris’s PCRA petition.13 On May 13, 2016, the
Pennsylvania Superior Court affirmed the denial of Mr. Burris’s PCRA petition.14 On May 8,
2018, Mr. Burris timely petitioned for a writ of habeas corpus under 28 U.S.C. § 2254.15
II. Analysis
We may entertain an application for writ of habeas corpus of a state prisoner challenging
a state court judgment as unconstitutional.16 We may not grant the writ unless the state court
adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.17
Where state procedural remedies are effective, we may not grant a habeas petition unless
the petitioner “has exhausted the remedies available in the courts of the State.”18 To satisfy
the exhaustion requirement, a “federal habeas claim must have been ‘fairly presented’ to the state
courts, i.e., it must be the substantial equivalent of that presented to the state courts.”19
All of Mr. Burris’s claims allege ineffective assistance of trial counsel under the Sixth
Amendment.

Under the ineffective assistance of counsel standard defined in Strickland v.

2

*w

Washington, Mr. Burris must show his counsel’s actions fell “outside the wide range of
professionally competent assistance, „20 The petitioner must also show there is a reasonable
possibility the outcome of the underlying proceeding would have been different if not for the
counsel’s deficient performance.21
Mr. Burris argues his trial counsel rendered ineffective assistance on four grounds by:
stipulating DNA testing would have shown the Mr. Burris’s sperm from the rape kit; denying
Mr. Burris his right to a trial by jury; denying Mr. Burris his right to testify; and, failing to call
important witnesses who would have testified Mr. Burris and the victim had earlier sexual
encounters. Judge Heffley found all Mr. Burris’s claims procedurally defaulted, meritless, or
both. We agree with Judge Heffley on all counts.
A. Mr. Burris’s DNA stipulation claim is procedurally defaulted and meritless.
Mr. Burris argues trial counsel rendered ineffective assistance by stipulating DNA testing
of the sperm from the rape kit would have shown it was Mr. Burris’s. This claim is procedurally
defaulted and meritless.
1. Mr. Burris’s DNA stipulation claim is procedurally defaulted.
Mr. Burris did not exhaust his claim regarding the DNA stipulation because he raised it
for the first time in his appeal of his PCRA denial, so the claim is procedurally defaulted. In Mr.
Burris’s amended PCRA petition, he raised three arguments concerning trial counsel failing to:
(1) call available witnesses who would have established Mr. Burris and the victim had “frequent
sexual relations”;

(2) conduct an adequate investigation into identified witnesses prior to trial;

and, (3) consult with Mr. Burris about his right to testify.23 Mr. Burris’s grievance regarding the
DNA stipulation appears for the first time in the PCRA court’s 1925(a) Opinion. The PCRA
court found Mr. Burris “waived” his DNA claim because he raised it for the first time in his

3

* IV

Statement of Matters.24 Mr. Burris’s failure to “raise and argue this issue discretely before the
PCRA court precluded him from raising it subsequently on appeal before the Pennsylvania
Superior Court.”25 Mr. Burris can only excuse his procedural default if he can show cause for
the default and actual prejudice as its result.26
Construing Mr. Burris’s pro se objections liberally, it appears Mr. Burris argues he has
cause for his default based on the Supreme Court’s decision in Martinez v. Ryan?1
argument fails.

This

Martinez established two limited circumstances in which a prisoner could

establish cause for procedural default: (1) if “the state courts did not appoint counsel in the
initial-review collateral proceeding”; or if (2) “appointed counsel in the initial-review collateral
proceeding . . . was ineffective under the standards of Strickland v. Washington. „28 The first
rf

circumstance does not exist here, because the state court appointed Mr. Burris counsel in his
initial-review PCRA proceeding. The second circumstance requires a showing the ineffective
assistance claim is a “substantial one,” possessing “some merit, „29 Mr. Burris has not made such
a showing for the reasons in the next subsection.
2. Mr. Burris’s DNA stipulation claim is meritless.
Assuming for the sake of argument Mr. Burris did exhaust his DNA stipulation claim, we
will address its merits. Mr. Burris argues his trial counsel “[tacitly] admitted”30 his guilt by
stipulating the sperm found inside the victim was Mr. Burris’s. Mr. Burris bases his argument on
the Supreme Court’s decision in McCoy v. Louisiana,31 arguing it created a new rule of
constitutional law32 which guarantees a defendant the right to maintain innocence of his crime
even over an experienced lawyer’s contrary advice admission would constitute a better strategy.
Mr. Burris misplaces reliance on McCoy for several reasons. First, McCoy is a capital
case, and it applies to situations in which a defendant chooses to maintain innocence instead of

4

confessing guilt to avoid the death penalty.

Second, McCoy addressed structural errors

warranting reversals on direct appeal, not Strickland habeas claims.34

Third, and most

fundamentally, Mr. Burris did maintain his innocence by presenting a consent defense.

Mr.

Burris’s counsel’s consent defense did not fall outside the wide range of professionally
competent assistance, nor did Mr. Burris suffer prejudice from it. As Judge Heffley found, Mr.
Burris’s Strickland claim is “utterly meritless. »36
B. Mr. Burris’s trial-by-jury claim is procedurally defaulted and meritless.
Mr. Burris next argues his trial counsel rendered ineffective assistance by failing to honor
Mr. Burris’s desire for a jury trial. This claim is procedurally defaulted and meritless.
1. Mr. Burris’s trial-by-jury claim is procedurally defaulted.
Mr. Burris did not exhaust his claim regarding a jury trial because he presents it for the
first time in this habeas petition. He did not present the claim to the PCRA court either at the
initial review stage or in an appeal. Mr. Burris again relies on Martinez to establish cause for his
procedural default, and again we deny this argument because Mr. Burris had PCRA counsel and
his claim is meritless, as explained below.
2. Mr. Burris’s trial-by-jury claim is meritless.
Mr. Burris claims he intended to ask for a jury trial, but his trial counsel interrupted him
before he could. The record does not support his argument. Before the trial, Mr. Burris signed a
written jury trial waiver colloquy. Judge Kane questioned Mr. Burris at the start of trial to
ensure Mr. Burris reviewed the waiver with his attorney and Mr. Burris understood the waiver.
Then, Judge Kane asked Mr. Burris, “It’s your choice, judge or jury—judge trial or jury trial?

„37

Mr. Burris responded, “Judge. „38 The record reflects no counsel misconduct or prejudice to Mr.
Burris as a result of his bench trial. Mr. Burris’s Strickland claim is meritless.

5

C. Mr. Burris’s claim regarding his failure to testify lacks merit.
Mr. Burris properly exhausted his testimony claim, so we turn directly to its merits.3^
Mr. Burris argues his trial counsel “provided inaccurate advi[c]e regarding Petitioner’s right to
testify, 5)40 which prejudiced him because he wished to testify about the circumstances related to
the crime. We disagree.
Mr. Burris fails to meet both Strickland prongs. Mr. Burris is correct the decision to
testify on one’s own behalf is “reserved for the client.”41 But as Judge Heffley noted, Mr. Burris
has not explained how counsel’s decision to keep him off the stand constituted an unreasonable
strategy.42 At trial, Mr. Burris’s counsel told the court he had discussed with Mr. Burris whether
he wished to testify, and Mr. Burris elected not to.43 Mr. Burris does not argue his counsel
misrepresented those facts, nor does he present evidence showing he did intend to testify at trial
other than his own bare assertion. Finally, Mr. Burris has failed to argue how his testimony
would have changed the outcome of the case. Mr. Burris’s Strickland claim fails.
D. Mr. Burris’s claim regarding counsel’s failure to call witnesses is procedurally
defaulted and meritless.
Mr. Burris argues his trial counsel rendered ineffective assistance by failing to call
witnesses who would have substantiated Mr. Burris’s claim the victim consented to their
encounter. This claim is proeedur-al-l-y-defaulted and-meritless.---------------- --------------------------1. Mr. Burris’s claim regarding counsel’s failure to call witnesses is
procedurally defaulted.
Mr. Burris’s claim regarding trial counsel’s failure to call witnesses is unexhausted. Mr.
Burris raised the claim in his amended PCRA petition, but he did not raise the claim in his
Statement of Matters.

Mr. Burris’s failure to appeal the claim means he did not “ ‘fairly

present[]’” the claim through the state courts.44

6

>' V

Mr. Burris tries a new tact to excuse this procedural default, alleging he presented new
evidence of “actual innocence” which excuses his default under the Supreme Court’s decision in
McQuiggin v. Perkins 45 But Mr. Burris presents no new evidence, let alone evidence which
would prevent a reasonable juror from finding him guilty beyond a reasonable doubt as
McQuiggin requires.46

Instead, Mr. Burris presents bare, unsubstantiated assertions in his

petition, arguing counsel should have called other witnesses who would have testified he and the
victim had a prior relationship. He attaches only one affidavit, from Erikca McGlond, in which
she asserts she would have testified to Mr. Burris’s and the victim’s ongoing relationship. But
Ms. McGlond testified at Mr. Burris’s trial, saying she saw Mr. Burris and the victim in bed
together at her house.47 Mr. Burris has not presented the evidence required for a showing of
actual innocence, so his claim is procedurally defaulted.
2. Mr. Burris’s claim regarding counsel’s failure to call witnesses is meritless.
Even assuming Mr. Burris exhausted this claim, it lacks merit. A claim regarding failure
to call witnesses requires a showing under Strickland:
(1) that the witness existed; (2) that the witness was available; (3)
that counsel was informed of the existence of the witness or should
have known of the witness's existence; (4) that the witness was
prepared to cooperate and would have testified on appellant’s
behalf; and (5) that the absence of the testimony prejudiced
appellant.48
As Judge Heffley found, Mr. Burris “has not come close to meeting these
requirements. ,A9

Mr. Burris provides two names, Rodney Banks and Erica Miner, without

affidavits or any other supporting evidence.

Mr. Burris alleges Ms. McGlond could have

informed his trial counsel of the other witnesses’ whereabouts, yet counsel did not investigate.
But none of Mr. Burris’s allegations prove the witnesses even existed, let alone prepared to
testify. Moreover, these witnesses’ testimonies are unlikely to change the outcome of the trial.
7

Ms. McGlond already testified Mr. Burris and the victim spent time together at her house.
Likewise, Mr. Burris’s witnesses would have testified he and the victim had an existing
relationship. Mr. Burris’s Strickland claim is without merit.
E. We deny a certificate of appealability.
“Unless a circuit justice or judge issue a certificate of appealability, an appeal may not be
taken to the court of appeals from ... the final order in a habeas corpus proceeding in which the
detention

complained

of

arises

out

of

process

issued

by

a

State

court.50

When a district court rejects constitutional claims on the merits, the petitioner “must
demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong. „51
In Slack v. McDaniel, the Supreme Court explained when a district court denies a habeas
petition on procedural grounds without reaching the underlying constitutional claim, a certificate
of applicability should be issued “when the prisoner shows, at least, that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling. ,>52 When a “plain procedural bar is present” and the district court correctly
invokes it to dispose the case, “a reasonable jurist could not conclude either that the district court
erred in dismissing the petition or that the petitioner should be allowed to proceed further.

„53

Mr. Burris has not shown, and we cannot find our holding denying his ineffective trial
counsel claim could be reasonably debated. Mr. Gonzalez has also not shown, and we cannot
find our conclusions barring his claims based on procedural default would allow reasonable
judges to debate the correctness of our ruling.

8

'*

III. Conclusion
Mr. Burris petitions for a writ of habeas corpus, alleging ineffective assistance of counsel.
His claims are procedurally defaulted, meritless, or both.

In the accompanying Order, we

approve and adopt Judge Heffley’s Report & Recommendation and dismiss Mr. Burris’s habeas
petition.

ECF Doc. No. 20, Ex. Cat 1.
2 Id. at 1-2.
3

386 U.S. 738 (1967).

4 ECF Doc. No. 20, Ex. C at 2.
5 Id.
6 Id.
1 Id.
8 Id.
9 Id.
10 Id.
nId
12 Pennsylvania Rule of Appellate Procedure 1925(a) requires a state trial court whose decision is
appealed to issue a brief opinion explaining the decision.
13 ECF Doc. No. 20, Ex. C.
14 ECF Doc. No. 20, Ex. F.
15 ECF Doc. No. 1.
16 28 U.S.C. § 2254(a).

9

‘\i

17 28 U.S.C. § 2254(d).
18 28 U.S.C. § 2254(b)(1).
19 Lambert v. Blackwell, 134 F.3d 506, 513 (3d Cir. 1997) (as amended) (quoting Evans v. Court
of Common Pleas, Del. Cty., Pa., 959 F.2d 1227,1231 (3d Cir. 1992)).
20 Strickland v. Washington, 466 U.S. 668, 690 (1984).
21 Lewis v. Horn, 581 F.3d 92,106-07 (3d Cir. 2009).
22 Petitioner’s Amended Petition for Post-Conviction Relief at 2, filed Dec. 10, 2012.
23 Id.
24 ECF Doc. No. 20, Ex. C at 2.
25 Thomas v. Sec’y, Pa. Dep’t of Corr., 495 F. App’x 200, 206 (3d Cir. 2012).
26 Coleman v. Thompson, 501 U.S. 722, 750 (1991).
27 566 U.S. 1 (2012).
28 Martinez, 566 U.S. at 14.
29 Id.
30 ECF Doc. No. 24 (Petitioner’s Objections), at 5.
31 138 S. Ct. 1500 (2018).
32 Cognizant of our duty to construe Mr. Burris’s pro se petition liberally, we impute this
argument to him.
33 See McCoy, 138 S. Ct. at 1505 (“We hold that a defendant has the right to insist that counsel
refrain from admitting guilt, even when counsel’s experienced-based view is that confessing
guilt offers the defendant the best chance to avoid the death penalty.”).
34 See United States v. Jose, No. 14-652-10, 2018 WL 3747449, at *4 (E.D. Pa. Aug. 7, 2018)
(“While McCoy instructs our guidance on the type of structural error warranting reversal on
direct appeal, it could not directly address the waiver of Strickland prejudice applying when a
convicted person seeks habeas relief.”), appeal filed, No. 18-2848 (3d Cir. Aug. 20, 2018).
35 N.T., D. Earl at 70-71, Sept. 17, 2008 (closing statement of defense) (“Mr. Burris never denied
or disputed that [he and the victim] had relations.”).
10

[Si

36 ECF Doc. No. 21 (Report & Recommendation), at 8.
37 See N.T. p. 5, Sept. 17, 2008. Commonwealth v. Burris, No. CP-5l-CR-0000712-2008 (Pa. Ct.
Com. PI. Phila. Cty.).
38 Id.
39 ECF Doc. No. 20, Ex. F at 5.
40 ECF Doc. No. 24, at 10.
41 McCoy v. Louisana, 138 S. Ct. 1500, 1508.
42 ECF Doc. No. 21, at 11.
43 N.T., D. Earl at 67-68, Sept. 17, 2008, Commonwealth v. Burris, No. CP-51-CR-00007122008 (Pa. Ct. Com. PL Phila. Cty.).
44 Lambert v. Blackwell, 134 F.3d 506, 513 (3d Cir. 1997) (as amended) (quoting Evans v. Court
of Common Pleas, Del. Cty., Pa., 959 F.2d 1227, 1231 (3d Cir. 1992)).
45 5 69 U.S. 383 (2013).
46 McQuiggin, 569 U.S. at 386.

.

47 N.T., E. McGland at 63, Sept. 17, 2008, Commonwealth v. Burris, No. CP-51-CR-00007122008 (Pa. Ct. Com. PI. Phila. Cty. Sept. 17, 2008).
48

Moore v. DiGuglielmo, 489 F. App’x 618, 625 (3d Cir. 2012) (citing Commonwealth v.
Fulton, 830 A.2d 567, 572 (Pa. 2003)).
49 ECF Doc. No. 21, at 12.
50 28 U.S.C. § 2253(c)(1).
51 Slack v. McDaniel, 529 U.S. 473, 484 (2000).
52 Id.
53 Id.

11

■V;

4'9

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PERRY BURRIS

CIVIL ACTION
v.

NO. 17-2161

TERESA DALBALSO, et al
ORDER
AND NOW, this 9th day of October 2018, upon careful and independent consideration of
the Petition for a writ of habeas corpus (ECF Doc. No. 1), the Response to the Petition (ECF Doc.
No. 20), United States Magistrate Judge Marilyn Heffley’s August 30, 2018 Report and
Recommendation (ECF Doc. No. 21), Petitioner’s Objections (ECF Doc. No. 24), and for reasons
in the accompanying Memorandum, it is ORDERED:
1.

Judge Heffley’s comprehensive August 30, 2018 Report and Recommendation

(ECF Doc. No. 21) is APPROVED as we overrule Petitioner’s objections (ECF Doc. No. 24);
2.

We DENY the Motion for appointment of counsel (ECF Doc. No. 1-5) as moot;

3.

We DENY and DISMISS the Petition for a writ of habeas corpus (ECF Doc. No.

1) with prejudice;
4.

There is no probable cause to issue a certificate of appealabilityi; and,

5.

The Clerk of Court shall CLOSE this case.

KEARN

1

Slack v. McDaniel, 529 U.S. 473, 484 (2000).

